HHS/OIG, Audit -"Emergency Response to Hurricanes Katrina and Rita: Audit
of Program Support Centers Procurement Process for Contract Action HHSP233200600085U With
Analytic Services, Inc.,"(A-03-06-00511)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Emergency
Response to Hurricanes Katrina and Rita:  Audit of Program Support Centers Procurement
Process for Contract Action HHSP233200600085U With  Analytic
Services, Inc.," (A-03-06-00511)
June 15, 2006
Text
of Report is available in PDF format (253 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our audit was to determine whether the Program Support Center (PSC) complied
with applicable Federal Acquisition Regulations and Health and Human Services Acquisition
Regulation while making the involved procurement.  PSC procurement officials complied
with Federal acquisition requirements during the award process of $15,827,324 for the contract
action HHSP233200600085U under contract number GS10F0026J, to Analytic Services, Inc., for
provision of services to hurricane victims.  Because this report contained no recommendations,
no response was necessary.